USE OF EQUITABLE SHARING REVENUES
 BY THE BERWYN POLICE DEPARTMENT
         BERWYN, ILLINOIS




     U.S. Department of Justice
   Office of the Inspector General
            Audit Division


    Audit Report GR-50-10-004
            April 2010
             USE OF EQUITABLE SHARING REVENUES BY
                THE BERWYN POLICE DEPARTMENT
                       BERWYN, ILLINOIS

                              EXECUTIVE SUMMARY

      The U.S. Department of Justice (DOJ), Office of the Inspector General,
Audit Division has completed an audit of the use of DOJ equitable sharing
revenues by the Berwyn Police Department (Berwyn PD). Equitable sharing
revenues represent a share of the proceeds from the forfeiture of assets
seized in the course of certain criminal investigations. 1 During the period of
January 1, 2006, through April 30, 2009, the Berwyn PD was awarded DOJ
equitable sharing revenues totaling $654,681 to support law enforcement
operations. 2

      The Berwyn PD generally accounted for and complied with equitable
sharing guidelines with respect to accounting for equitable sharing receipts,
use of equitable shared property, and interest earned on equitable sharing
funds. However, we found weaknesses related to the Berwyn PD’s overall
internal controls, Federal Annual Certification Reports and Single Audits, its
tracking and reconciliation of sharing requests and property accountability,
and its use of equitable sharing revenues and compliance with non-
supplanting requirements. Overall, we identified $1,045,945 in dollar-
related findings. 3 Our findings include:

   •   Use of Equitable Sharing Funds - We identified expenditures for
       impermissible activities and equipment, donations, and unsupported
       costs. As a result, we identified $152,634 in questioned costs.

   •   Supplanting - The Berwyn PD has not utilized its own funds to
       purchase a police vehicle since fiscal year (FY) 2001. All 45 police
       vehicles currently on the inventory were purchased for $893,311

       1
           The DOJ asset forfeiture program has three primary goals: (1) to punish and
deter criminal activity by depriving criminals of property used or acquired through illegal
activities; (2) to enhance cooperation among foreign, federal, state, and local law
enforcement agencies through equitable sharing of assets recovered through this program;
and, as a by-product; (3) to produce revenues to enhance forfeitures and strengthen law
enforcement.
       2
           The Berwyn PD’s fiscal year is January 1 through December 31.
       3
         Excluding the $893,311 related to supplanting questioned costs, the bulk of which
were outside our review period, the remaining $152,634 constitutes 12 percent of equitable
sharing expenditures between January 1, 2006, and April 30, 2009.
    between January 1, 2001, and April 30, 2009, utilizing equitable
    sharing funds. 4 Because we consider police vehicles to be a basic
    necessity for a police department, these vehicles did not result in an
    increase in police equipment, but rather indicate that the Berwyn PD
    may have supplanted funds that would have otherwise been used for
    this purpose.

•   Federal Sharing Agreements and Annual Certification Reports - While
    Federal Sharing Agreements were properly filed as required and
    Annual Certification Reports (ACR) were submitted timely, we noted
    that the ACRs for FYs 2006 and 2007 contained reporting errors.
    Specifically, the total expenditures for FY 2006 summer youth payrolls
    totaling $17,234 were omitted from the total of reported expenditures.
    Additionally, interest income reported on the 2007 ACR was overstated
    because the total improperly included $143 that was actually a deposit
    and not earned interest.

•   Property Management - While separate officers within the Berwyn PD
    are responsible for property management records for vehicles, laptops,
    and weaponry, these same officers record the initial entry, update the
    records as necessary, and perform the required inventories on at least
    an annual basis. Further, no one checks the work of any of these
    individuals. We identified errors and omissions on the property
    management records and these errors and omissions have existed for
    several years.

•   DAG-71s - Equitable sharing guidelines require that the receiving
    entity specify the intended purpose of the funds requested and
    maintain a log and copies of all DAG-71s forwarded to DOJ. The
    Berwyn PD used the same generic statement in each of its DAG-71s
    that funds would be used for “policing activities, training and law
    enforcement operations calculated to result in further seizures and
    forfeitures.” In our opinion, the lack of details regarding the use of
    funds creates the opportunity that funds will be used for impermissible
    purposes that may not be detected in a timely manner, if at all. In
    addition, no log of DAG-71s, as required by equitable sharing
    guidelines, was maintained by the Berwyn PD.

•   Single Audit Requirements - According to OMB Circular A-133, Audits
    of States, Local Governments, and Non-Profit Organizations, the city of
    Berwyn was required to have an annual Single Audit for all years
    under review. The open FY 2004 and FY 2005 Single Audits properly

    4
        Differences in totals are due to rounding.

                                          -2–
      identified and tested the Berwyn PD’s equitable sharing Asset
      Forfeiture Fund as a major program and noted numerous material
      internal control weaknesses and significant questioned costs.
      However, we discovered that the Single Audits for FYs 2006 and 2007
      understated the equitable sharing expenditures by several hundred
      thousand dollars. Further, the Asset Forfeiture Fund was not identified
      as a major program that should have been considered for testing
      according to the single auditor’s threshold. City Finance Department
      staff stated program expenditures were not properly reported to the
      single auditor because the Berwyn PD operated its equitable sharing
      funds outside the city Finance Department prior to FY 2008.

  •   Internal Controls - The purpose of internal controls and segregation of
      duties is to ensure that errors or irregularities are identified and
      corrected in a timely manner. However, we noted that within the
      Berwyn PD, the entire equitable sharing cycle (including receipt,
      accounting, disbursement, and reporting) is overseen by only one
      individual. Further, there is no independent review of the work
      performed by this person.

      Our report contains 10 recommendations to address the weaknesses
we identified, which are discussed in detail in the Findings and
Recommendations Section of the report. Our audit objectives, scope, and
methodology appear in Appendix I of the report. We discussed the results of
our audit with Berwyn PD officials, and we included their comments in the
report, as applicable.




                                    -3–
